<html>
<title> - NATIONAL RURAL DEVELOPMENT COUNCIL</title>
<body><pre>[Senate Hearing 106-756]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 106-756
 
                   NATIONAL RURAL DEVELOPMENT COUNCIL

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                                   ON

                   NATIONAL RURAL DEVELOPMENT COUNCIL

                               __________

                             MARCH 8, 2000

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry



                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
67-661                     WASHINGTON : 2000

_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402


           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                  RICHARD G. LUGAR, Indiana, Chairman

JESSE HELMS, North Carolina          TOM HARKIN, Iowa
THAD COCHRAN, Mississippi            PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            KENT CONRAD, North Dakota
PAUL COVERDELL, Georgia              THOMAS A. DASCHLE, South Dakota
PAT ROBERTS, Kansas                  MAX BAUCUS, Montana
PETER G. FITZGERALD, Illinois        J. ROBERT KERREY, Nebraska
CHARLES E. GRASSLEY, Iowa            TIM JOHNSON, South Dakota
LARRY E. CRAIG, Idaho                BLANCHE L. LINCOLN, Arkansas
RICK SANTORUM, Pennsylvania

                       Keith Luse, Staff Director

                    David L. Johnson, Chief Counsel

                      Robert E. Sturm, Chief Clerk

            Mark Halverson, Staff Director for the Minority

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing:

Wednesday, March 8, 2000, National Rural Development Council.....     1

Appendix:
Wednesday, March 8, 2000.........................................    35
Document(s) submitted for the record:
Wednesday, March 8, 2000.........................................    81

                              ----------                              

                        Wednesday, March 8, 2000
                    STATEMENTS PRESENTED BY SENATORS

Craig, Hon. Larry E., a U.S. Senator from Idaho, Chairman, 
  Subcommittee on Forestry, Conservation, and Rural 
  Revitalization, of the Committee on Agriculture, Nutrition, and 
  Forestry.......................................................     1
Conrad, Hon. Kent, a U.S. Senator from North Dakota..............    10
                              ----------                              

                               WITNESSES
                                Panel I

Conti, Eugene A., Assistant Secretary for Transportation Policy, 
  U.S. Department of Transportation, Washington, DC..............     4
Fox, Dr. Claude, E., Administrator, Health Resources and Services 
  Administration, U.S. Department of Health and Human Services...     7
Long-Thompson, Jill, Under Secretary for Rural Development, U.S. 
  Department of Agriculture, Washington, DC......................     2

                                Panel II

Black, David, E., Deputy Secretary for Community Affairs and 
  Development, Pennsylvania Department of Community and economic 
  Development....................................................    23
Fluharty, Chuck, Director, Rural Policy Research Institute 
  (RUPRI), Columbia, Mo..........................................    14
Graham, Bill, Mayor, City of Scottsburg, Scottsburg, IN..........    16
Grant, Cornelius, Executive Director, North Dakota Rural 
  Development Partnership, Bismarck, ND..........................    21
Hudson, Tom, President, Tom Hudson Company, and Chair, Idaho 
  Rural Partnership, Moscow, ID..................................    19
Landkamer, Colleen, Commissioner, First District, Blue Earth 
  County, Mankato, MN............................................    26
                              ----------                              

                                APPENDIX

Prepared Statements:
    Craig, Hon. Larry E..........................................    36
    Leahy, Hon. Patrick..........................................    37
    Black, Dave, E...............................................    72
    Conti, Eugene A..............................................    40
    Fluharty, Chuck..............................................    53
    Fox, E. Claude...............................................    45
    Graham, Bill.................................................    59
    Grant, Cornelius.............................................    69
    Hudson, Tom..................................................    63
    Landkamer, Colleen...........................................    76
    Long-Thompson, Jill..........................................    38
Documents Submitted for the Record:
    List of PA Rural Development Council Presenters, 
      Teleconference Sites, submitted by David E. Black..........    82
    Serving Rural America, The Rural Transportation Initiative, 
      submitted by Colleen Landkamer.............................    94
    U.S. Department of Transportation Rural Program Guide, 
      submitted by Colleen Landkamer.............................   113

 
                   NATIONAL RURAL DEVELOPMENT COUNCIL

                              ----------                              


                        WEDNESDAY, MARCH 8, 2000

                                       U.S. Senate,
         Subcommittee on Forestry, Conservation, and Rural 
Revitalization, of the Committee on Agriculture, Nutrition, 
                                              and Forestry,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:42 p.m., in 
room SR-332, Russell Senate Office Building, Hon. Larry E. 
Craig (Chairman of the Subcommittee) presiding.
    Present: Senators Craig and Conrad.

 OPENING STATEMENT OF HON. LARRY E. CRAIG, A U.S. SENATOR FROM 
 IDAHO, CHAIRMAN, SUBCOMMITTEE ON FORESTRY, CONSERVATION, AND 
    RURAL REVITALIZATION, OF THE COMMITTEE ON AGRICULTURE, 
                    NUTRITION, AND FORESTRY

    Senator Craig. Good afternoon, everyone. The Subcommittee 
on Forestry, Conservation, and Rural Revitalization is called 
to order. Thank you for your patience. I was running a bit 
late.
    I also want to thank you all for being here today to 
discuss the National Rural Development Partnership. Many of you 
are here in Washington, DC. this week for the NRDP's annual 
National Rural Policies Conference. I am glad that we are able 
to coordinate this hearing with your meeting.
    As many of you know, the National Rural Development 
Partnership, better known as the Partnership, was established 
under the Bush administration in 1990 by Executive Order 1272O. 
The Partnership is a nonpartisan interagency working group 
whose mission is ``to contribute to the vitality of the Nation 
by strengthening the ability of rural Americans to participate 
in determining their futures.''
    We are here today to learn more about the National Rural 
Development Partnership. We will hear from individuals 
representing Federal, State, county, local, and tribal 
governments, as well as the private sector, about what has 
happened in the last decade since the Partnership's formation 
and where the Partnership is headed in the future. Through this 
hearing, the Committee will learn how the Partnership works and 
what, if anything, needs to be done to improve it.
    The rural and urban areas of our country face many of the 
same problems, but they suffer different kinds of impacts. I 
represent the dominantly rural State of Idaho. Our rural areas 
cover about 88-percent of the State, but they are home to only 
about 36-percent of the population. I regularly hear from 
individuals concerned about the condition of rural America and 
the impacts of Federal decisions on our ruralness.
    For example, management decisions by the Federal Government 
on these lands directly impact the livelihood and daily 
activities of many of the citizens who live in rural Idaho. 
However, the impacts of Federal decisions on rural areas go far 
beyond those of land management agencies.
    I support programs that bring communities together to 
develop solutions to their problems. I believe the Partnership 
can and does do this. However, I have heard concerns that not 
all departments and agencies participate in the Partnership, 
and that financial support is lacking in many instances.
    With that in mind, I welcome all of our panels here today 
and look forward to hearing their testimony. I would like to 
remind the panels that their entire testimony will be a part of 
the record, and so I would hope that they could hold their 
statements within the 5-minute range, as I have attempted mine. 
I will also tell you that I think some of my colleagues will be 
joining me this afternoon.
    It is also timely that we convene because, at a time when 
the general economy of our country is very robust, much of 
rural America is not sharing in that kind of wealth. Whether it 
is the state of agriculture today, or whether it is a logging 
community or a mining community, in my State many of those 
communities are experiencing as much as 14- to 16-percent 
unemployment, while statistically my State almost shows full 
employment.
    This is the schism that exists today in an economy that is 
significantly different that the kind of economies we have had 
in the past, and therefore our ability to effectively measure 
it and understand it does not demonstrate to us here in 
Washington those kinds of statistics. I think that part of this 
hearing is reflective of that concern. So let me ask our first 
panel, who are now seated, to proceed.
    It is a pleasure of mine to have Jill Long-Thompson, Under 
Secretary for Rural Development, United States Department of 
Agriculture. Jill and I once served in the House together; we 
were colleagues over there. Also, Eugene A. Conti, Assistant 
Secretary of Transportation Policy, Department of 
Transportation, and Claude E. Fox, Administrator, Health 
Resources and Services Administration, Department of Health and 
Human Services. So, Jill, if you would start, welcome to the 
Committee.
    [The prepared statement of Senator Craig, can be found in 
the appendix on page 36.]

  STATEMENT OF JILL LONG-THOMPSON, UNDER SECRETARY FOR RURAL 
          DEVELOPMENT, U.S. DEPARTMENT OF AGRICULTURE

    Ms. Long-Thompson. Thank you, Mr. Chairman. Thank you for 
inviting me here today to discuss the National Rural 
Development Partnership as well as the State Rural Development 
Councils. If it is agreeable to you, I will submit my written 
testimony for the record and talk briefly.
    Senator Craig. Without objection.
    Ms. Long-Thompson. As you and I have discussed, in the 36 
States where we have councils, they play a very important role 
in coordinating and streamlining the efforts and the resources 
of agencies and programs of Federal, State, and local 
governments, as well as the private sector. And, as you 
mentioned very eloquently, the initiative was born in 1990 and 
is the result of an executive order of the President.
    The reason that the executive order was issued was that 
then Under Secretary Roland Valour. He developed this very 
framework in response to the numerous complaints that he was 
receiving that nowhere in the Federal Government was there the 
needed focus on rural development, that there was considerable 
focus on production agriculture and the agriculture sector of 
the world economy, and particularly during the 1980s when we 
had very low commodity prices.
    By the time that he was holding this position in 1990, that 
economy had started to rebound. But all during that time local 
communities across the country were being very successful with 
individual rural development initiatives, but their efforts 
were not very well coordinated, and there was just no focus at 
the Federal level in a way that could really help them to 
achieve their objectives efficiently and cost effectively.
    So, out of that concern and his leadership, this initiative 
was born. Now, to date, 10-years later we have 36 States that 
have Rural Development Councils and we have a number of other 
States that are seriously looking at forming councils. In fact, 
we have four States that, right now, are just about ready to 
put councils into place. The bulk of the funding, as you know, 
for the councils is Federal, although there has to be at least 
a 25-percent contribution from the States in which the councils 
exist.
    When I first took this position--now, there was little 
standardization in the relationship between the Federal 
Government, including the Department of Agriculture, and the 
State Rural Development Councils. Each council existed as the 
result of the formation in its State, but the relationship with 
USDA was based on individual cooperative agreements between 
USDA and that State, which we still have. But the funding 
levels for each of the councils varied depending upon the 
cooperative agreement that was reached between USDA and that 
State, and there was also a disparity; in some States, the 
executive directors of the councils were Federal employees, and 
in some cases they were not.
    So one of the things that we have worked to do since my 
coming on board is to have some kind of standardization, so 
that the councils get equitable treatment from the Federal 
Government. And, as a result of that, we have tried to better 
standardize the cooperative agreements. All of the directors 
are now in a contract relationship with the Federal Government.
    At the same time that we have worked to do that, we have 
had a major restructuring, as you know, in the Department of 
Agriculture, and I think it has actually enhanced the potential 
for the Rural Development Councils to be successful at tying 
together the initiatives at the various levels and in the 
private sector. Our, what were formerly our State Directors for 
Farmer's Home Administration are now Rural Development State 
Directors, and they are, as you know, appointed by the 
President of the United States, and they work very closely with 
the Rural Development Council Directors in the 36 States where 
we have the councils.
    Since the restructuring in the Department of Agriculture, 
some of the burden of responsibilities for the Rural 
Development Councils has changed, as a result of us now having 
State directors that have the responsibility of rural 
development. But I think that has enhanced the potential for 
working together, and I think we have seen a number of 
successes as a result of that.
    Also I would like to say that in addition to the 
relationship that exists, the individuals who are involved in 
the Rural Development Councils in the 36 States that have them 
are really outstanding individuals. I could have a bit of a 
bias. The Chair for the National Executive Committee is Mayor 
Bill Graham from Scottsburg, Indiana, who has an outstanding 
reputation in the State of Indiana for the work that he does in 
rural development.
    But we do have, I just think, a very strong network across 
the country. The challenge for us is, in these times of reduced 
budgets, coming up with the funding. Since we do not have any 
direct authority over the councils themselves, it is difficult 
to find the money when other money that we have is allocated 
for a specific purpose.
    In this particular fiscal year, in Rural Development at 
USDA, we had to put in place a 21-percent cut in our 
administrative budget, and we mirrored, or duplicated, mirrored 
that with the Rural Development Councils. Well, the Rural 
Development Councils have pretty small budgets, so a 21-percent 
cut can be quite significant.
    So it appears to me that if we are going to continue to 
have a good, successful working relationship, and if they are 
going to continue to be effective, and if we are going to be 
successful in expanding them to the 50 States, there needs to 
be some kind of legislative foundation for the initiative, and 
we also need to figure out some way that there can be 
consistent funding. The way we fund now is to just look for the 
money, and as my colleagues will tell you, a lot of the time we 
are writing letters back and forth, placing phone calls, 
strong-arming each other, saying ``How are we going to come up 
for the funding for this initiative?'' It is a real challenge. 
But, by being an executive order, and by us having no 
authority, and by them having no accountability to us, it 
really is quite a challenge.
    [The prepared statement of Ms. Long-Thompson can be found 
in the appendix on page 38.]
    Senator Craig. Well, Jill, thank you very much. We will go 
through the full panel before I ask any of you to respond to 
questions, if that is all right.
    Now, Eugene Conti, Assistant Secretary for Transportation 
Policy, Department of Transportation. Secretary. Welcome.

     STATEMENT OF EUGENE A. CONTI, ASSISTANT SECRETARY FOR 
    TRANSPORTATION POLICY, U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Conti. Thank you, Mr. Chairman. I want to thank you, 
also, for asking us to be here today to talk about a subject we 
are all very interested in and committed to.
    One of the first jobs Secretary Slater asked me to take on 
is to coordinate our department's efforts in rural areas, so I 
have been aware of and involved with the National Rural 
Development Partnership since my appointment. As you also may 
know, Secretary Slater grew up in a very rural area in 
Arkansas, so he is very sensitive to these issues and reminds 
me very often, and makes sure that I am doing a good job here.
    The Partnership provides DOT with a valuable channel for 
communication with a broad spectrum of local rural officials 
and activists who help shape and implement transportation 
programs related to those local community economic development 
efforts. I want to emphasize that we believe transportation is 
a key, in most cases, to local economic development. We are 
really aware of no other mechanism, other than the councils, 
that gives us such direct and ongoing access to those local 
officials who can help us as we seek to respond to some of the 
transportation challenges we face.
    As you mentioned and others know, rural America faces very 
serious transportation challenges. Residents of rural areas and 
small towns often suffer from isolation and reduced access to 
transportation alternatives. The National Rural Development 
Partnership brings together the organizations, the State and 
local representatives, business interests and residents to help 
deal with these critical issues.
    The Partnership collaborated with us when we put together 
our Rural Transportation Initiative, which Secretary Slater 
announced in May of 1999. The Initiative is a comprehensive 
approach to help America's rural communities fully enjoy the 
benefits of the Nation's growing economy and improvements in 
transportation safety and mobility. The Partnership acted as a 
sounding board for policy and program ideas for the Initiative 
and helped us disseminate its products, a brochure and a 
program guide, to rural stakeholders, copies of which have been 
provided to the Subcommittee.
    The Department has been an active member of the Partnership 
since its inception, and continues to receive important support 
and guidance from the Partnership. As a result of the increased 
cross-program cooperation and collaboration generated by the 
councils, DOT focuses its limited program resources more 
effectively and provides services more efficiently.
    We used the Partnership in developing our surface 
transportation reauthorization proposal, and will continue to 
use it as we carry out TEA-21 programs involving rural 
interests, including focusing on a very critical issue, which 
is greater involvement of local rural officials in Statewide 
planning processes. As you know, our transportation planning 
process emphasizes getting local participation. It is a very 
structured process, and in a lot of the States it is difficult 
to do the Statewide process unless you reach out to rural 
officials. So, we are emphasizing that all States need to do a 
good job of reaching out and involving local officials in that 
process.
    In Illinois, for example, the Rural Development Council's 
Transportation Committee completed a 2-year Statewide rural 
public transportation study that identified barriers to more 
effective transportation services all across rural Illinois. 
the Committee will meet with the Illinois DOT to review the 
report's recommendations and discuss implementation 
opportunities.
    As you are no doubt aware, Mr. Chairman, the Idaho Rural 
Partnership has also supported the involvement of rural 
officials in the Statewide planning process. The Idaho 
Partnership's executive director was the facilitator for the 
Idaho Transportation Planning Task Force, which brought 
together the Idaho Department of Transportation, the 
Association of Idaho Cities, the Idaho Association of Counties, 
and the Idaho Association of Highway Districts to resolve 
differences concerning local transportation planning. The task 
force successfully developed a consultation process that 
balances the needs of all the parties involved, and makes sure 
that everyone is involved in that decision making process.
    In Connecticut we have another good example. In 1996 the 
Connecticut Rural Development Council co-sponsored a successful 
public forum, ``Designing Roads and Bridges to Preserve 
Community Character,'' which brought together the Connecticut 
DOT, Federal Highway Administration, U.S. DOT, local 
government, State and congressional representatives, historic 
preservationists and environmentalists, all to discuss how to 
make those programs work better, to develop alternative design 
guidelines, and again, to consult very heavily with local 
community groups about these issues.
    Tourism is also a vital part of the Nation's economy, and 
transportation plays in that, and particularly in rural areas 
can be very much a boost to the local economy. The department 
is trying to improve coordination and cooperation between 
transportation and tourism practitioners on the Federal, State 
and local level. The National Partnership has been an important 
player in that effort.
    For instance, in Utah, the Rural Development Council 
facilitated the public information gathering process for the 
National Park Service as they developed a draft management plan 
for Zion National Park and Zion National Canyon. The South 
Western Utah Planning Authorities Council process facilitated 
discussions about transportation needs for the Park and worked 
with the National Park Service to develop a consolidated 
transportation hub and visitors center which will open this 
year in May.
    In conclusion, let me just say that the Department has been 
a strong and consistent supporter of the Partnership. We 
believe that the Partnership is a valuable resource not only to 
our department, but also to rural America. We strongly support 
its role in bringing together partners from the public and 
private sectors to help rural communities improve their 
economies and quality of life.
    That concludes my prepared statement, Mr. Chairman, and I 
have submitted a written statement for the record. Thank you 
very much.
    [The prepared statement of Mr. Conti can be found in the 
appendix on page 40.]
    Senator Craig. Thank you very much, Mr. Secretary.
    Now, let me turn to Claude Fox, Administrator, Health 
Resources and Services Administration, Department of Health and 
Human Services. Administrator Fox, welcome before the 
Committee.

   STATEMENT OF CLAUDE EARL FOX, M.D., ADMINISTRATOR, HEALTH 
   RESOURCES AND SERVICES ADMINISTRATION, U.S. DEPARTMENT OF 
                   HEALTH AND HUMAN SERVICES

    Dr. Fox. Thank you, Mr. Chairman. HHS appreciates the 
opportunity both to be here and to support rural health as well 
as this Partnership, and you also have my prepared statement.
    Senator Craig. Yes.
    Dr. Fox. If I could just make a few opening comments, I was 
born in a rural hospital, I grew up in a rural community. I 
received my medical education in a rural State. My first 
practice was in a rural community. I also chaired the Alabama 
task force chartered by the Alabama Legislature to look at 
rural health. And the Agency that I oversee within Health and 
Human Services actually administers the rural health policy for 
the department, so we have the responsibility for the entire 
department to look at the policy issues across the department, 
including HCFA and elsewhere.
    As I am sure you know, health is important for a lot of 
reasons, not the least of which is the economic benefits to the 
community, and health is often the largest employer, or second 
largest employer only to education. HHS is absolutely committed 
to this partnership, and I think we have and will continue to 
demonstrate ways. One, the most visible way, is we put almost 
$500,000 a year into this partnership, and we plan to continue 
to do so. The second is that the current Chair of the National 
Council is Dianne McSwain, who is with HHS. And, third, we have 
the active participation of a number of departments and 
agencies within HHS, including my own Office of Rural Health 
Policy.
    Let me say personally, I think for the value of the council 
and why it needs to continue to exist, one of my dilemmas, 
having come from local and State government in rural 
communities, is to try to think about how, as we put different 
Federal assets into the community, how do we make sure that the 
whole is better or greater than the sum of the parts? And I 
think often we put things into the communities without the 
right hand knowing what the left hand does.
    I think one of the values of this council is for us to be 
able to talk across agencies. It is not because of ill will, 
but we just sometimes don't have an opportunity to do it. This 
offers the chance, on issues like the Children's Health 
Insurance Program, to talk about how we can coordinate on 
outreach, and we have done that across Federal partners. It 
offers us the opportunity, on issues like TANF and the 
implications for TANF for rural communities, to talk about what 
we can do to make sure that we protect rural communities 
wherever possible. It offers the opportunity, for the Critical 
Access Hospital Program that we oversee, in trying to help 
rural hospitals survive, to make sure all the Federal partners 
are working together wherever possible.
    It is for those and other reasons that we think the 
Partnership provides both a forum and venue for Federally, 
those of us here, to talk, but also to make sure that we hear 
and we do reality checks with rural communities through these 
local councils. We think this Partnership is very valuable. 
Again, we will continue our participation, and I look forward 
to any questions you might have today. Thank you.
    [The prepared statement of Dr. Fox can be found in the 
appendix on page 45.]
    Senator Craig. Mr. Fox, thank you very much. while I may 
direct my questions specifically to one of the three of you, 
all three of you are certainly invited to make comment, if you 
feel it appropriate and it fits your agency, your knowledge of 
the Partnership, and the issues at hand.
    Secretary Long, in your statement you note that the lack of 
consistency in funding and the lack of legislative foundation 
providing policy guidance and direction has been problematic 
from the very beginning of the initiative. Will you expand on 
this? And, with these thoughts in mind, would you support a 
line item for the partnership within USDA and other 
departments' budgets? Or how do you propose to deal with the 
lack of consistent funding? Also, what do you believe needs to 
be done legislatively to provide more direction and guidance 
while maintaining the flexibility necessary to meet the diverse 
needs of rural communities?
    You gentlemen may certainly wish to comment on that also.
    Ms. Long-Thompson. Well, I think that the structure of this 
initiative, which is a great idea with great objectives and has 
had success in 36 States, they are very valuable to rural 
communities, but with the current structure I think a line item 
in the appropriations bill would be a mistake. And I think it 
would be a mistake for one primary reason, that being, since 
the councils are not under the authority of any agency or 
department in the Federal Government, I think that would be the 
first place that appropriators would look to cut funding in 
times of working very hard to balance the budget.
    We have a difficult time, as you know, coming up with the 
salaries and expenses levels that are needed to administer the 
program levels that we have. Just in the time that I have been 
here, as you know, we have increased our program level 
significantly and at the same time we have considerably fewer 
number of employees for oversight. So I think it would become a 
very vulnerable line item and would probably be eliminated 
within a very short period of time, if not the very first year.
    I think that structurally, and I don't have the answer 
here, but I think that structurally, if there are going to be 
Federal dollars spent, if you are consistently going to fund a 
particular initiative, then there has to be some kind of 
accountability back to the Federal Government. It is only good 
management, and that is not the way this is set up.
    It as set up, I think initially when it was established 
this way, it was probably the very best approach you could 
have. Since that time, we have restructured in the Department 
of Agriculture and we have a very different structure that we 
are working with out in rural communities. We have Rural 
Development State Directors that did not exist in 1990.
    So, I think that there needs to be some kind of 
accountability. I know, as an Under Secretary who has to take 
responsibility for the entire Rural Development budget, and can 
be and am held accountable by you, as I should be, and even 
more significantly by the taxpayers of this country, I need to 
be able to have some kind of authority over where the money is 
going and how it is being spent. So I think you would want some 
kind of authorizing language that would have to be a critical 
component of any changes.
    Senator Craig. The character of its creation, the executive 
order, basically kind of puts the idea out there, creates a 
broad structure but does not create by law a defined policy 
structure. Is that what you are saying?
    Ms. Long-Thompson. That is right. And when we have in Rural 
Development what is a 21-percent cut in administrative 
expenses, we have a very difficult time, even in a large 
agency, when you have an obligation to make that uniform across 
those areas that we are funding. That really hurts the Rural 
Development Councils that have very small budgets to begin 
with.
    Senator Craig. Gentlemen, would either of you wish to, or 
both of you, comment on the base question?
    Mr. Conti. I would be happy to add to Secretary Long's 
answer and to really support her, in particular because we have 
a situation in the Department of Transportation where we have 
been able to fund the Partnership about $500,000 a year for 
several years. That money was no longer available taken from 
the Highway Trust Fund when TEA-21 was technically corrected. 
The administrative take-down-what is called the administrative 
take-down out of the Trust Fund for both Federal highways and 
for the State highway departments-was rearranged and changed, 
and the administrative budgets of the Federal Highway 
Administration in particular were fairly squeezed because of 
that take-down.
    We also got a prohibition in 1999 from the House 
Appropriations Committee that we could not transfer this 
$500,000 to the partnership, and that prohibition was extended 
in the fiscal year 2000 budget. So, we are at a point where, 
unless we take it from some other agency, Within the 
Department, we really don't have the resources to support the 
Partnership at that level.
    In fiscal 1999 I took $50,000 out of my administrative 
budget, which is somewhere in the neighborhood of $2,000,000; 
so $50,000 is a fairly good contribution from that size budget, 
but it was about as much as I was able to do from my office. We 
have requested in the fiscal 2001 budget, which is up here for 
consideration, $500,000 again for the Partnership, but that may 
be subject to the same treatment that it has received in the 
last couple of years.
    So we do have a problem in assuring the consistency of 
funding, and I think that is an issue we would love to work 
with you on, with the caveats Secretary Long mentioned, that we 
don't want to create targets for other people.
    Senator Craig. Thank you. Administrator Fox.
    Dr. Fox. Mr. Chairman, we don't have a position on the line 
item of funding. I think we put up $422,000 a year and we plan 
to continue to provide at least that. The Partnership has been 
very valuable to us.
    I would say that it is not a command and control function, 
and one of the values of the Partnership is, it is a convening 
dialogue across Federal agencies with the local councils. I 
would, quite frankly, defer to the local councils if they felt 
there was any need to change the administrative structure. I 
mean, we are doing it for them anyway.
    Senator Craig. OK. We have been joined by my colleague, 
Senator Kent Conrad, who is a valuable member of this committee 
and probably one of rural America's clearer voices. Kent, will 
you wish to make comment?

STATEMENT OF HON. KENT CONRAD, A U.S. SENATOR FROM NORTH DAKOTA

    Senator Conrad. Thank you very much, Mr. Chairman. And 
thank you very much for holding this hearing, and a special 
welcome to Jill Long-Thompson.
    Every year, Mr. Chairman, I do a thing we call 
``Marketplace'' in North Dakota, and it has developed into 
quite an event. We had about 5,000 people there this year, and 
we have a series of display booths that show people what are 
things that are working to diversify a farming operation, to 
build jobs in a community, to attract new economic development 
to a region.
    And, then we have a series of classes as well, this year 
nearly 150 different classes that were held, many of them, 
about a third of them on technology this year, and many of them 
were completely over-subscribed. I mean, you would go into the 
classes, classrooms were packed. And Jill Long-Thompson has 
come before, was there this year. We very much appreciate it, 
your presentation and your contribution to that program.
    I think the reason I raised it, Mr. Chairman, is because, 
as you know so well, these rural States have been very hard hit 
by the agricultural crisis. We have been beset by low prices, 
bad weather, and a very, very straitened financial 
circumstance.
    The result is, on many of the main streets of cities and 
towns in my State, and I am sure it is true in your State as 
well, there are really hard times out there. Anything that we 
can do to help generate economic activity, or plans for 
attracting economic activity, that is a plus, and I want to 
make sure that we are doing everything possible in terms of 
Federal Government involvement that can be productive.
    I have found Jill Long-Thompson's office very sincerely 
motivated to make a positive difference in this area. I think 
her own background on a farm probably has something to do with 
this sincere motivation, because you don't have to talk very 
long about the problems that we are having with her, and she 
knows exactly what we are talking about.
    I would just like to go back to the suggestion that the 
chairman made, whether it would be helpful to have a line item. 
I am on the Budget Committee, and I am on the Finance 
Committee, and I have learned, through sometimes bitter 
experience, it does make a difference. And I know that the 
panelists here have had a chance to respond to that, but I just 
wanted to add my voice that I think it would be a useful thing. 
If I could----
    Senator Craig. Let me add, I asked the question about a 
line item in the context of the current structure of the 
program. It is an executive order that created it. We did not 
by a law create it, nor did we define it in a clear way, as to 
its role and its relationship. So I am concerned because the 
agencies in part have, because of its flexibility, been able to 
fund it to some extent. How do we create consistency, I think 
is what I am interested in, and stability, therefore 
predictability, coming out of this program.
    Senator Conrad. Well, I think you make a very good point, 
because that is critically important out on the ground. If you 
have something that is there 1-year and it is not there the 
next, that is very disruptive to any kind of long-term plan.
    I would just like to ask Jill Long-Thompson, could you tell 
us what you see happening out across the country? You have a 
special perspective because you don't just come to my State, 
and you don't just go to the Chairman's State, you are out 
around the country. Could you just give us a brief thumbnail on 
what you are seeing out there across the country?
    Ms. Long-Thompson. Well, there are some rural communities 
that are doing very well right now, but in many rural 
communities, particularly those that are more isolated and not 
as close to regional centers, they are having a very, very 
difficult time. North Dakota has a number of communities that 
there is a lot of work going on within the communities, but 
without having some kind of larger economy to tie into, they 
face a real challenge.
    What I think is particularly valuable about the Rural 
Development Councils--and in this job, like in your jobs, you 
hear all sides of an issue. The councils are often criticized 
for spending the bulk of their energy on meetings within the 
State and national meetings and otherwise, but the reality is 
they don't have program dollars to administer. And in the rural 
community that I come from, having an opportunity to meet with 
folks from various Federal agencies, as well as State agencies, 
as well as interact with private foundations, that is a real 
opportunity.
    My home town, our mayor is a part-time mayor. We don't have 
a staff of folks who have Master's Degrees in public 
administration and a specialty in grant writing. So when you 
have some kind of method----
    Senator Conrad. It is written over the kitchen table.
    Ms. Long-Thompson. Late at night after work, exactly. And 
so when you have some kind of initiative that brings these 
folks together, these meetings can be very, very valuable. But 
the real challenge is, with regard to the funding, if there is 
not a legislative structure that establishes accountability 
between the Federal Government that is providing the funding 
and the entity that is receiving the funding, in this case the 
Rural Development Councils, I think it would be very difficult 
to have sustained support for a line item. And so I think that 
if you have one, you have to have the other.
    Senator Conrad. Can I ask you just a very specific--Mr. 
Chairman, might I just ask a final question?
    Senator Craig. Sure.
    Senator Conrad. A very specific question to Jill about the 
intermediary relending program. Our problem in North Dakota, 
one of our problems is that so many Federal programs are based 
on unemployment, and our problem is not unemployment, our 
problem is no employment. Our unemployment rate shows it is 
very low. Our employment rate, in the State of North Dakota, 
Mr. Chairman, hovers around 2-percent.
    Senator Craig. Two-percent.
    Senator Conrad. That doesn't mean that we have got some 
burgeoning economic activity going on, it means people vote 
with their feet and they leave town when they don't have a job. 
It is pretty hard to make it through the winter without a job. 
We have an awful lot of people who are badly underemployed.
    One of the things we have tried to do is get the various 
programs to relate to out-migration, and it has come to my 
attention on the IRP funding, that the application scoring only 
looks at out-migration over the past 10-years. In our State, we 
have been subject to out-migration for the last 100-years. We 
are one of the few States in the Nation that is going down in 
population, and I would be very interested in getting a change 
in the scoring so that, if you have a place that has had 
consistent out-migration for decades, not the just the last 10-
years, that is taken into account. Would that be something we 
could work together on?
    Ms. Long-Thompson. Yes, I think it would just require a 
regulatory change. It would just require a regulatory change, 
and I will, when I get back to the office today, I will start 
working on that.
    Senator Conrad. I would appreciate it, because I do think 
it would be a realistic way of assessing where real need is, I 
think.
    I thank you very much, Mr. Chairman.
    Senator Craig. Thank you. I might say that maybe some of 
those folks have discovered Idaho, but I will leave it alone.
    Senator Conrad. Mr. Chairman, let me just say our people 
like to go South, and I am not talking South Dakota. Something 
to do with our winters, I think
    Senator Craig. If anybody representing Senator Daschle is 
here, I would hope that word gets back to him.
    In the 1996 farm bill, Section 381(1)(l), for the creation 
of the Rural Development Interagency Working Group to 
coordinate, make recommendations and evaluate all Federal rural 
development efforts, the conference report language for the 
bill indicated an expectation that National Rural Development 
Partnership would be the foundation upon with the Interagency 
Working Group is established. The report also provided for a 
role for State Rural Development Councils. What is the status 
of this Interagency Working Group? Was it ever established by 
the Secretary as instructed in the farm bill, and has it 
interacted with the Partnership?
    Ms. Long-Thompson. I want to check on a couple of things.
    Senator Craig. OK.
    Ms. Long-Thompson. It has been functioning informally, and 
we have submitted a report to Congress, and it is based on 
input from a number of sources. It has been interagency, as 
directed by law.
    Something else that we now do that has been helpful in this 
whole process, is our State Directors for Rural Development at 
USDA are required to write strategic plans for their respective 
States, and the strategic plan is for USDA Rural Development 
Administration of our programs. But in writing that strategic 
plan, they have worked with the Rural Development Councils in 
the 36 States that have them. They have also worked with a 
number of other entities in their States, and we have brought 
that information together, and that was a part of the report 
that was--or was used in compiling the report that was 
submitted to Congress.
    Senator Craig. We recognize that there are 36 States. Our 
goal was that this would be a national program, nationwide. It 
is obvious that not all are participating. Why isn't there a 
council in each State, and what might be able to be done to 
achieve that goal?
    Ms. Long-Thompson. We have worked to encourage States to 
form Rural Development Councils, not only us at USDA, but the 
Partnership, and not just the national Partnership, but the 
councils themselves have worked in outreach. I believe it would 
be a more powerful network if there were one in existence in 
every State, and we have pushed for that, as I mentioned in my 
testimony. We have four States that we expect will have 
councils fairly soon.
    But ultimately we don't have control over it because it is 
an executive order without legislative direction. There is no 
authorization, and so ultimately it falls on the responsibility 
of the States to determine whether or not they want to have a 
council. And, as you know, the governors play a particularly 
strong role in that because they are the ones who appoint the 
director for each council in each State.
    Senator Craig. OK.
    Ms. Long-Thompson. But we are working on that. And I will 
tell you it is a double-edged sword, because at the same time 
that you want there to be one in all 50 States, because of the 
gained influence from that, that means you have to divide the 
resources that you have among a larger number of councils. So I 
still think the right decision is for it, if it is truly going 
to be national, there should be one in every State if the 
States want them. But in a true Federal-State partnership, you 
leave a lot of that control to the State level, and it is up to 
them to make that determination.
    Senator Craig. Your presence here obviously says all of 
your agencies are involved in the partnership, and you have 
some success stories. Do you feel that the all-agency and 
department approach in contributing is adequately being done in 
the Partnership with both money and time at this point, and 
what do you believe can be done to increase participation in 
the Partnership?
    Obviously, transportation is key, the kind of programs that 
USDA has is key, that can contribute to economic development. 
Health care is critically important to rural America, 
especially the foundation of health care if we are to have the 
ability to draw new development, new jobs, into a region. But 
the Partnership has been somewhat limited in its participation 
at this level. Any suggestions?
    Ms. Long-Thompson. I would then go back to what I said 
initially, which is some kind of legislative authorization with 
accountability.
    Mr. Conti. I think we would support that as well, Mr. 
Chairman. I think there are good examples where it has worked 
well. Again, from our department's perspective, it is very 
important to involve people at the local level in the rural 
areas in these important transportation decisions, and we see 
good examples of where that has really helped create better 
transportation projects and really helped local economies. So 
we would support strengthening that relationship.
    Ms. Long-Thompson. One other suggestion would be more money 
appropriated from Congress. That would help.
    Dr. Fox. Mr. Chairman, two comments. One, it is my 
understanding that we could do with perhaps a little broader 
participation across the Federal Government on the National 
Council, that is one thing that perhaps is limiting us. And 
obviously if they participated, they would hopefully bring some 
money to the table. And that also is impacting, I understand 
there are four States that would like to have a council today 
but are limited by the lack of funding, so it really is an 
issue in many ways of--I mean there are a lot of other issues 
as well, and I don't want to minimize those, but funding is a 
major issue.
    Ms. Long-Thompson. May I follow up on that, too?
    Senator Craig. Sure, Jill.
    Ms. Long-Thompson. Because I have spoken with Mayor Graham 
and with others about requiring a greater match on the part of 
the States, but that would be quite a burden on the States, and 
there are many that believe that, that would literally kill 
some of the councils in some of the States. So I think that is 
an important point to have on the record.
    Senator Craig. My last question to all of you, then: Should 
the Partnership continue? And if it is to continue, should we 
legislate it?
    Ms. Long-Thompson. The answer to the first question is, 
without hesitation, yes, it should continue, and I think I 
unhesitatingly say yes, there needs to be some kind of 
legislative authorization to make it as successful as it can be 
across the country.
    Mr. Conti. I would concur with those remarks, I think that 
is correct.
    Dr. Fox. Absolutely. It is a valuable tool, and I think we 
would be pleased to work with the Congress if you wanted to put 
this in statute.
    Senator Craig. OK, well, thank you very much for your 
presence here today. If I have additional questions, I will 
submit them to you in writing and you can respond to them in 
your leisure. Thank you very much for taking time to be here 
today. Thank you very much.
    Now, our second panel: Chuck Fluharty, Director, Rural 
Policy Research Institute; Bill Graham, Mayor of City of 
Scottsburg; Tom Hudson of the Tom Hudson Company; Cornelius 
Grant, Executive Director, North Dakota Rural Development 
Partnership; Dave Black, Deputy Secretary for Community Affairs 
& Development, Pennsylvania Department of Community and 
Economic Development; and Colleen Landkamer, Commissioner, 
First District, Blue Earth County. Where is that?
    Ms. Landkamer. Minnesota.
    Senator Craig. Minnesota. Thank you all for being here. 
With that, we will start out in the order in which I have 
introduced you all to the hearing room. Chuck Fluharty, 
Director, Rural Policy Research Institute. Thank you for being 
here. Please proceed.

 STATEMENT OF CHUCK FLUHARTY, DIRECTOR, RURAL POLICY RESEARCH 
                INSTITUTE (RUPRI), COLUMBIA, MO

    Mr. Fluharty. Thank you, Mr. Chairman, and I would ask my 
full testimony be included in the record.
    Senator Craig. Without objection.
    Mr. Fluharty. I appreciate that. First of all, I would like 
to express appreciation to you and the Subcommittee for this 
opportunity. I do have testimony, I was asked to go into the 
full overview of ``the new rural reality,'' and I think you 
know that is primarily why RUPRI works with the U.S. Congress 
across a broad range of issues.
    In the interest of time I would, unless you have specific 
questions, Mr. Chairman, like to just say generally what that 
reflects is what the old rural sociologist once said: ``When 
you have seen one rural community, you have seen one rural 
community.'' We are a highly diverse rural America. It makes it 
therefore difficult to craft national programs. It is why an 
occasion like the Partnership is so critical.
    Our rural economy is growing. It is fragile and uneven. 
Three-fourths of our counties in the United States are rural, 
that are growing. However, of those only four out of ten are 
getting most of the growth and, as you know, our historic 
extraction industry counties are lagging. Generally, we still 
have huge challenges in human and social capital, but we are 
benefiting from an expansion in the economy of our country, and 
significant pockets of significant growth exist, and I would be 
happy to take any questions you have.
    I would like, however, just to offer a few comments. One of 
my great gifts is the ability to travel, not only around the 
country but to other countries, and learn how their public 
culture is working with the private sector in rural 
development. I would just like to offer four or five 
perspectives on this moment.
    I think it is really critical, Mr. Chairman, that we get an 
emergent rural perspective from this Congress. I think the fact 
that Under Secretary Long-Thompson and Assistant Secretary 
Conti and Administrator Fox are here is recognizing there is an 
emergent understanding of the unique rural differential.
    The second thing I would like to ask is that you continue 
to think about how critical this Subcommittee is. We know that 
the farm gate and Main Street are inextricably linked from now 
on, and I think the potential for your leadership to continue 
in looking at integrative role policy efforts out of this 
Subcommittee is so very critical. We are very enthused on the 
House side there is a Congressional Rural Caucus forming which 
is bipartisan. And I think because of the growing suburban 
context in the policy culture, it is critical for leaders like 
yourself to continue to offer these opportunities. We commend 
you for it. I think it will be critical.
    I would like to offer three or four perspectives, at the 
end, from RUPRI's understanding of where rural policy is, that 
does relate to the partnership. I think it is really critical 
that we build a more integrative community, common sense, 
grassroots-based sense of how public policy is going to move in 
rural communities. And I think the National Rural Development 
Partnership, if we didn't have it now, we would be creating it 
to do just exactly that.
    I think there really is a need for a new rural pragmatism. 
We are not going to have a national rural policy. We need to 
build community rural policies, and I think to take that to 
scale, we are going to need to think about what leadership in 
this Congress can do to accomplish that.
    I will list five areas where I think globally rural policy 
is moving to address specific public policy opportunities in a 
private sector world. The first is the digital divide. It is 
absolutely critical. There is a legislative and regulatory 
component to that. There is very, very clearly in that regard a 
private sector link, and I think the Partnership is doing very 
meaningful work in States to do that.
    Second, we have got to look at private sector based 
regional economic strategies in IT. Many of these States are 
doing that and are working with congressional committees there. 
third, we really need to support rural entrepreneurship, and 
that is starting to happen. It is not just equity and venture 
capital, but it is also systems of support. The councils are 
doing that.
    The last two issues, we really do need to continue to 
address what is going on in the Ag sector, how those challenges 
and shifts are occurring. councils are engaged in that. The 
last issue is the whole area of the rural landscape: land use, 
environmentally appropriate new business and infrastructure. 
And, finally, how do we build social and institutional capital 
to make sure our best and our brightest do not leave?
    In closing, I think that is all about local leadership, and 
I think we really need to craft new rural, new governance 
opportunities for leaders like Mayor Graham, Colleen Landkamer, 
and councils. If we didn't have a Partnership, we wouldn't be 
doing that, Mr. Chairman.
    I think this 10-year experiment is at a very different 
place than it was, as is rural America today. And I really do 
think you will continue to provide, hope you will continue to 
provide leadership to think through legislatively ``How do we 
sustain this?'' It is unique in our country, and reflects 
global trends in building public, private philanthropic 
linkages that are community-based.
    I really do thank you again, and the Committee, for your 
time today. This is a wonderful moment to begin this dialogue, 
and we thank you.
    [The prepared statement of Mr. Fluharty can be found in the 
appendix on page 53.]
    Senator Craig. Well, thank you very much for those 
comments.
    Now, Mayor Bill Graham with the City of Scottsburg. Mayor, 
why don't you pull that microphone around so that we can hear 
you?

   STATEMENT OF HON. BILL GRAHAM, MAYOR, CITY OF SCOTTSBURG, 
                      SCOTTSBURG, INDIANA

    Mayor Graham. Thank you, Mr. Chairman, and members of the 
Committee. I would like to say I am very honored but very 
humbled to be here today. And I am Bill Graham, and am here 
today wearing several hats. I am the Mayor of the city of 
Scottsburg, Indiana, a community of 6,300 people; I am the 
Chairman of the Indiana Rural Development Council; and I am 
also Chair of the Executive Committee of the National Rural 
Development Partnership.
    I would like to give you an overview of how work on the 
Partnership supports the Indiana Council, how these 
organizations benefit communities like Scottsburg and other 
States.
    The National Partnership provides foundations for success. 
It has the unique ability to connect the efforts of Federal 
agencies by coordinating resources. All of these agencies have 
programs that benefit the quality of life in rural America. The 
work of the NRDP is exceptional, however, because no other 
structure exists to provide coordination of these services to 
the State and local levels.
    Along with Federal agencies, the Partnership brings in 
representatives of State, local, and tribal governments, as 
well as the private sector. All partners come to the table as 
equals and participate in decisionmaking. We are also equals in 
doing the work and in celebrating our successes. We are not 
about taking credit, but instead we work together for the 
mutual benefit for all. The Partnership does not have advocate 
for new programs or bigger government. Instead, we focus on 
building bridges, using the foundation to make better rural 
communities across the country.
    The Partnership provides a forum that allows us to network 
with our counterparts from around the country. This network 
results in sharing the experiences and good examples that take 
place in each of the member States. I have taken many ideas 
home from the national and State meetings and put them to use 
to make my community a better place to live.
    Limited resources certainly minimize our effectiveness. Our 
communities and States look to the National Partnership for 
leadership through issues. It is important that we continue to 
provide these services for the betterment of our rural areas.
    The Indiana Rural Development Council is the only Statewide 
entity working exclusively to alleviate the disparities in 
Indiana. Our agency's purpose is to coordinate the efforts of 
citizens and governments to meet the economic and social needs 
of rural Indiana.
    The council does not operate as a State agency, nor are we 
a Federal agency. Our council operates at the discretion of the 
leadership of our governing board, which is comprised of 28 
representatives from each of the five sectors. We also add 
State legislators appointments, and we recently added 
representatives from the U.S. Senate and Congress' offices.
    The council is not a funding source for communities. We 
operate on $87,000 a year to date. The work of the council is 
done through task forces, and some of these have been the 
Environmental Infrastructure Working Group, helping communities 
identify potential funding sources for water and wastewater 
projects and other infrastructure projects.
    We also have a Housing Task Force which assists the 
communities in researching all of their housing assistance. 
This is known as IHART, Indiana Housing Assistance Review Team, 
to help applicants identify partners who can assist in 
providing affordable, safe and sanitary housing.
    The Community Visitation Program is one of my favorites. 
The community visits allow a team of resource providers to 
listen to elected officials as well as community residents, to 
allow key problem areas and resource needs to surface in an 
informal, open setting. Rural communities, although they may be 
about the same size, differ greatly when it comes to needs. We 
are able to provide a handbook to these elected officials 
reporting not only what we have heard throughout our visits, 
but also listing resources available to them if they wish to 
take action on these resources.
    I can go on and on, but as a Mayor I would like to say how 
important it has been to me to serve in the Indiana Rural 
Development Council and to serve in the National Rural 
Development Partnership.
    I picked up my paper before I left home, and we have a 
local paper in Scottsburg, Indiana, and it is called ``The 
Giveaway,'' and it just comes out every Wednesday, so I haven't 
got the latest copy but this is the latest copy before I left 
Scottsburg.
    Page 1 on ``The Giveaway''--and I only bring this to show 
you the kind of issues that we face in small rural communities 
and as a local elected official--on page 1, ``Workforce Center 
is designated as a `one-stop center' for support services in 
Scott County.'' And why our Workforce Center was designated as 
a one-stop is through my participation in the Indiana State 
Council and the National Rural Development Partnership, and my 
effort to make sure that our county was a one-stop center.
    Page 5, ``Domestic situation results in shooting at local 
school and liquor store-two dead.'' Very devastating to a small 
community with a population of 23,000 people in the whole 
county, but very real rural issues that we deal with.
    Page 9, ``Purdue Extension Service offers stress management 
workshop for farmers and rural residents.'' And this maybe 
might have been one of those most sickening to me, is the fact 
that we are looking like we have already give up on the farm 
crisis and those folks are going to lose their farm, not 
looking at programs like risk management and other things, as 
to how much they might be keeping their farm.
    Special insert, ``Basketball Mania Preview.'' Basketball 
still prevails very high in the State of Indiana.
    There is no educational degree or training I can get to 
prepare me for dealing with these issues, no State or Federal 
Government that can provide all the services we need to assist 
our communities with all these things. To be effective, local 
leaders need to network to find proper resources to assist 
them. The National Partnership, through the work of the State 
councils, provides this nonpartisan forum.
    I would really like to thank all of those who has been our 
partners and our supporters, and would really like to thank 
this group, but the Under Secretary, Jill Long-Thompson, and 
USDA Rural Development has certainly been a faithful partner to 
us, and all the other Federal funding agencies who have been 
here today, I personally want to say thanks for standing by and 
helping us. I must conclude, but I will submit my testimony, 
and thank you again very much for allowing me to be here.
    [The prepared statement of Mayor Graham can be found in the 
appendix on page 59.]
    Senator Craig. Mayor, thank you very much for that 
heartfelt testimony, and thank you for your leadership at both 
the State and national level.
    Now, let me turn to Tom Hudson of the Tom Hudson Company of 
Moscow, Idaho. Folks, that is not ``Moscow,'' that is 
``Mosco.'' Tom, welcome before the Committee.

  STATEMENT OF TOM HUDSON, PRESIDENT, TOM HUDSON COMPANY, AND 
                 CHAIR, IDAHO RURAL PARTNERSHIP

    Mr. Hudson. Thank you, Mr. Chairman, and thank you for that 
clarification. I appreciate it. I would also like to thank you 
for your efforts in organizing this very important session. It 
is a privilege to be here.
    I am the Chairman of the Idaho Rural Partnership and the 
principal of Tom Hudson Company. I have been a rural 
development practitioner for 21 years, and am proud to be a 
fifth generation rural Idahoan. I share this background to 
emphasize that rural development is really not just my vocation 
but also my heritage and my mission in life, so I take my time 
with you very seriously today.
    In the precious time that I have with you, I would like to 
emphasize four key points. First, American rural communities 
and lifestyles are in peril. Second, a strategic public-private 
partnership is needed to restore and sustain a stable rural 
economy. Third, our State and National Rural Development 
Partnerships are by far the most effective means for 
undertaking this effort. And, fourth, the current linkage to 
our valued Federal partners lacks two essential elements: Our 
funding is unpredictable, and there is no systematic commitment 
to a long-term relationship.
    As someone from the private sector, I have developed my 
commitment to the Idaho Rural Partnership carefully. I am 
supposed to be in business to make money. Six years ago I chose 
to volunteer my time with this organization because I found 
that it wasn't just unusual in the State, it is actually 
unique. Hundreds of people from all walks of rural life and 
government are working together as a team on rural issues and 
collaborating very effectively, building a series of 
outstanding successes.
    The Idaho Rural Partnership operates from the principle 
that the residents of a community are best qualified to 
determine what constitutes progress in their communities. It 
follows to us that the best role for our partnership, then, is 
to inform and advise our rural communities and businesses; to 
increase their capacity for helping themselves; to link rural 
people with programs and resources that can help them address 
their needs; and, finally, to guide governmental partners in 
filling the gaps in rural service.
    Frankly, speaking, I came prepared today to outline and 
brag about, about 20 or so recent successes at Idaho Rural 
Partnership. Most of these projects have specifically helped to 
improve business conditions and helped to stabilize or create 
jobs. However, in the brief time that I have with you, I will 
just say simply that the projects we have completed address 
important facets of agriculture----
    Senator Craig. If you have, go ahead and give us a couple 
of examples. I think for the record it would be important to 
understand the kind of projects or the character of the 
projects involved. Please take time to do that.
    Mr. Hudson. Thank you. I appreciate that. There are so many 
partners in Idaho, it is difficult for me to pick anybody 
else's favorite reliably, but I can tell you that my own 
personal one relates to a project that has taken just about 2-
years to undertake, incorporating the insights of nearly every 
partner we have on our board. It is related to the biological 
control of weeds, which as you may well know, in Idaho is a 
very serious issue. Just on an annual basis, we lose 30,000-
acres a year to yellow star thistle.
    So we have our State Agriculture Department, Department of 
Commerce, Labor, so many different agencies that have a 
particular interest in this. Idaho Rural Partnership, led by 
our executive director, Dick Gardner, began a process a couple 
of years ago to engage all of these different agencies, 
nonprofit organizations, and in fact our tribes, in trying to 
address and identify a system that can successfully begin to 
push back on our dramatic noxious weeds problem.
    In the course of that 2-years, we successfully created a 
conceptual feasibility study, then went into full-fledged 
business planning with assistance from our outstanding partners 
in the Economic Development Administration. Ultimately, the Nez 
Perce Tribe, with assistance from the Department of Agriculture 
and the University of Idaho Extension, as well as many other 
members of the Partnership, put together an entirely new tribal 
enterprise focused on biological control of weeks. They are now 
up, fully running, and as a full-fledged business, addressing 
problems not just in our State but all over the intermountain 
Northwest, creating highly valuable jobs within the Nez Perce 
community, a very stressed community in Lapwai with a high 
level of unemployment which has exceeded 50-percent in recent 
years, and these are jobs in the area of horticulture science, 
forestry, and entomology. I think this is an outstanding 
example of the kinds of things that can go on, and I have 
others that I would be happy to share with you.
    Note that our projects are creatively funded using agency 
and private sector investments. Both the Idaho and National 
Partnerships are not about massive new spending programs, as 
our national Chair has shared with you, but rather we are about 
making existing programs more effective by working together. In 
a sense, the State Rural Development Councils often work as a 
glue to link and bind diverse sets of organizations together.
    We feel that the job of the Idaho Rural Partnership has 
only just started. As with many Western States, the economic 
health of Idaho communities varies widely. As you pointed out 
earlier, we have communities that are growing, some communities 
growing substantially, to the degree that with 8- to 12-percent 
growth annually, they just struggle to keep up with it. But 
more often we find that our rural resource dependent 
communities are just fighting to remain viable.
    And, similarly, the job of the National Rural Development 
Partnership has just begun. To be more effective, we need to 
expand the principle of collaboration. I think all of us in the 
36 States represented currently feel that we need this in all 
50 States. It also means that funding councils is needed at a 
level where they can actively management a larger number of 
collaborations.
    I am excited about this hearing because I believe one 
important partner has not really been invited to participate in 
the past 10-years of the National Rural Development 
Partnership, and that is namely the U.S. Congress. You have the 
ability to recognize collaboration as the most effective way to 
get progress accomplished on the ground, and the NRDP is the 
most effective way to lead this effort.
    Together, we have the ability to allow Federal field staff 
to participate fully in our State councils, and as you may 
know, they can't all do that today. You have the ability to 
encourage more Federal agencies with rural priorities to invest 
financially in the NRDP, and you have the ability to build 
bridges across the vertical flows of Federal funding streams.
    We in Idaho invite you and we urge you to build upon this 
outstanding job that we in Idaho see as being attained by the 
National Rural Development Partnership. We would like you to 
help us engage our Federal partners strategically and 
systematically in our mission to sustain your rural economies 
and communities.
    Finally, I would say we look forward to continuing this 
important dialogue with Congress on rural partners, and I thank 
you very much for this chance to speak with you.
    [The prepared statement of Mr. Hudson can be found in the 
appendix on page 63.]
    Senator Craig. Tom, thank you very much.
    Now, let us go to Cornelius Grant, executive director, 
North Dakota Rural Development Partnership. Mr. Grant, welcome 
before the Committee.

STATEMENT OF CORNELIUS GRANT, EXECUTIVE DIRECTOR, NORTH DAKOTA 
                   RURAL DEVELOPMENT COUNCIL

    Mr. Grant. Thank you. Mr. Chairman, on behalf of the North 
Dakota Rural Development Council and our fellow State Rural 
Development Councils in 35 States located across rural America, 
I initially wish to express appreciation to this distinguished 
committee for affording the opportunity to discuss the common 
bounds of the partnership, and then to describe several 
relationships unique to North Dakota.
    The National Rural Development Partnership is a network of 
established and emerging rural institutions that work together 
to strengthen rural America. Each of the State councils is 
comprised of active volunteer members from a broad range of 
rural development organizations which are served by a full-time 
executive director. States may differ on how they are organized 
and on the rural issues they decide to address.
    The North Dakota Rural Development Council is governed by 
an 18-member board of directors, five derived from the private 
sector, including the chairman, who is appointed by the 
governor of the State. Other board members are elected by their 
peers to represent community/local government, major 
communities, tribal governments, and State and Federal 
agencies. One or more of our board meetings are held in field 
locations, in regional centers, or on one of the State's four 
Indian reservations.
    I am an enrolled member of the Turtle Mountain Band of 
Chippewa Indians, and was born and reared on the Turtle 
Mountain Reservation located in north central North Dakota. 
With pride I say that I am also a retired 35-year veteran 
career civil servant.
    It is my understanding that I am one of two Native 
Americans presently serving as council executive directors, the 
other being Chuck Akers from Alaska. Also, we have at least one 
board of directors chairman in Quentin Fairbanks of the 
Minnesota Rural Partners, and one co-chairman, Donna Hair of 
the Oklahoma RDC.
    I mention these factors to underscore the inclusive intent 
of the State Rural Development Council concept, and as one of 
the stated goals of the North Dakota Rural Development Council, 
to forge new and proactive partnerships.
    The NRDC and councils in general, and our counterparts in 
the other 35 States at this time, are charged with the primary 
responsibility to bring together State, Federal, local and 
tribal governments and the private and public sectors in 
meaningful forums, offering opportunity to join forces, 
cooperate in new ways, and devise strategic action plans to 
address common issues or concerns, ultimately to strengthen 
representative communities and rural America itself.
    The council is not intended to be a new rural development 
program, a source of funds, a project clearinghouse or a 
lobbying organization. The goal is to make existing programs 
work more effectively to meet the needs of local communities. 
The council's role is to complement, reinforce and enhance 
these efforts by serving as a facilitator, expediter, convener, 
coordinator, and where appropriate, initiator.
    The North Dakota Rural Development Council is a relatively 
new organization, but we are gaining visibility and stature as 
we proceed with our Annual Work and Strategic Plan. The first 
opportunity in this regard was to become part of the State's 
team to assist the recovery efforts necessitated by the 1997 
winter blizzards and flood, which brought devastation to large 
numbers of Red River Valley communities in eastern North Dakota 
and three of the four Indian reservations in our State.
    Two years ago the council entered into a partnership 
agreement with the North Dakota Department of Emergency 
Management, wherein local meetings would be held in the 14 
counties and four Indian reservations, to better acquaint the 
two parties to emergency management matters and the 
availability of State EM training and supportive service. 
Responsibilities were to encourage and assist the design of a 
local awareness campaign, and ultimately formulate mutually 
acceptable operations and hazard mitigation plans. At this 
juncture each of the four tribal governments have designated EM 
contacts who are attending State-sponsored training sessions 
and are working closer with their neighbors on a defined 
cooperative response basis, neighbor-to-neighbor.
    In early 1998 a new Leadership North Dakota initiative was 
announced by the governor's office and, more importantly, the 
NRDC was pronounced to be the lead entity in this special 
effort. The council and partners developed a multistate 
strategy built around high visibility statewide events, 
including the use of interactive television broadcasts to 12-
sites, including the two tribal community colleges. At this 
event we had over 200 participants.
    The second event was a six-hour seminar presented by the 
best-selling author and motivational speaker, Tom Peters. This 
event was attended, free of charge, by over 5,000 community 
leaders and interested citizens.
    The first annual Leadership Development Conference was 
attended by nearly 1,000 participants, who were welcomed by 
showcase community betterment booths and leadership building 
classes and materials.
    A direct offshoot of the Leadership Initiative was a charge 
to the NRDC and many partners to develop a common format and 
process for community strategic planning. Seventy facilitators 
from every geographic region in our State have received the 
necessary training and are so certified. As a prerequisite to 
this free training, each committed to assist at least one 
community in their area to complete an acceptable strategic 
plan.
    Later this month we are scheduled for a one-day refresher 
course and additional group dynamic skill-building exercises. 
Selections are currently being made for active participation by 
at least 30 communities and the 4 Indian reservations, to be 
assisted as necessary to complete satisfactory community 
strategic plans.
    These activities are noted as tangible examples of the 
power of proactive partnerships, such as those forged by the 
NRDC and a large number of individuals and organizations who 
are dedicated toward enhancing the quality of life and standard 
of living in North Dakota. My counterparts in the other 35 
States have accomplished as much, or in many cases much, much 
more, through the auspices of the State Rural Development 
Council concept.
    Your demonstrated interest in the State Rural Development 
Councils is sincerely appreciated. Thank you again for the 
opportunity to describe what the North Dakota Rural Development 
Council is all about, and on behalf of rural America, our 
ambitions for the future.
    [The prepared statement of Mr. Grant can be found in the 
appendix on page 69.]
    Senator Craig. Mr. Grant, thank you. A gathering of 5,000 
is more of a ``happening'' than a meeting, isn't it?
    Mr. Grant. It was a very exciting time.
    Senator Craig. Must have been.
    Mr. Grant. And I emphasized the motivational part, but we 
were trying to build leadership.
    Senator Craig. Well, congratulations. That is a marvelous 
story.
    Mr. Grant. Thank you.
    Senator Craig. Now, let me turn to Dave Black, Deputy 
Secretary for Community Affairs and Development, Pennsylvania 
Department of Community and Economic Development.
    Mr. Black.

  STATEMENT OF DAVID E. BLACK, DEPUTY SECRETARY FOR COMMUNITY 
 AFFAIRS AND DEVELOPMENT, PENNSYLVANIA DEPARTMENT OF COMMUNITY 
            AND ECONOMIC DEVELOPMENT, HARRISBURG, PA

    Mr. Black. Thank you very much, Mr. Chairman. It is a 
pleasure to be here this afternoon. My name is David Black. I 
am Deputy Secretary of what we call DCD, serving the residents 
of Pennsylvania. My responsibilities include oversight of 
Pennsylvania's development efforts in three primary areas: 
local government; community development, which we refer to 
affectionately as community building; and entrepreneurial 
development. I also serve in the capacity as Governor Ridge's 
alternate to the Appalachian Regional Commission, which has a 
largely rural focus.
    Prior to serving in State government, I did serve as a 
county commissioner in rural Pennsylvania, northwestern 
Pennsylvania, Clarion County. I had the opportunity also to 
serve as chairman of the Northwest Regional Planning and 
Development Council, serving eight counties in rural 
northwestern Pennsylvania with delivery of both State and 
Federal programs.
    What I would like to do today is just share with you a 
little experience from my prior life, and then perhaps talk a 
little bit of how this integrates with what is going on with 
the Rural Development Council in Pennsylvania.
    During my time in service in county government, which 
started in the mid 1980s through the mid 1990s, it was a very 
difficult time in many rural places throughout the country. In 
northwestern Pennsylvania, we were largely a natural resource 
based rural area, coal, timber, oil and gas, and there were 
certainly difficulties in the economy in general, but specific 
difficulties with the local economy. We had to pool together 
regionally, work locally, try to figure out a way to shift our 
local industrial base while the national economy was going 
through a shift as well.
    To make a long story short, through a lot of phone calls, a 
lot of meetings, a lot of local effort, a lot of outreach, we 
did manage to do that, did manage to get things turned around 
in our county. However, the recovery I think, in looking at 
what is in place now with the Pennsylvania Rural Development 
Council, might have happened a little sooner, it might have 
happened a little quicker, and I think probably would have 
happened with a lot less consternation on the part of local 
elected officials, had the Pennsylvania Rural Development 
Council been in place.
    The Rural Development Council in Pennsylvania dates back to 
1992, shortly after the executive order was signed. Since 
Governor Tom Ridge has assumed office in 1995, the council was 
moved from a regional office of one of our State agencies to 
the State Capital in Harrisburg; it was removed from a State 
agency, became part of the governor's executive office; and was 
elevated to the stature of the governor's office and recently 
became part of State government through an executive order 
issued by Governor Ridge.
    The council enjoys a stronger efficacy role because of this 
position in State government, and has access to expanded 
resources within State government. In addition to the Federal 
funding, State government, we do provide approximately $180,000 
a year in State funding to help the council carry out its 
mission.
    The mission of our council in Pennsylvania is relatively 
simple: convening, facilitating, coordinating, educating, and 
advocating. The Pennsylvania Rural Development Council has 
sought to open lines of access and communication throughout 
rural Pennsylvania. We largely use telecommunications 
technology through 10-sites located throughout the Commonwealth 
to establish four, at least four meetings a year to discuss a 
number of issues. These are live teleconferencing, so not only 
do people have the opportunity to hear State and Federal 
officials, but they also have the opportunity to exchange 
information and learn from their peers.
    Having been on the presenter side of some of these forums, 
they have been very lively. It was, as a former elected 
official, it was one of the first times that I actually took a 
hit via telecommunications at one of these meetings, but it 
was----
    Senator Craig. But they can't throw things.
    Mr. Black. They can't throw anything but, as you probably 
could appreciate, verbal jabs do hurt occasionally.
    Senator Craig. Yes, I have been there.
    Mr. Black. But it was, it has been a very good mechanism 
and a great opportunity for people to share information using 
telecommunications. Pennsylvania is a very large State, and to 
get from the furthest corner of the State to the State Capital 
is about 6-hours.
    We have had a number of very important presentations, and 
included in my testimony is detailed information of the 
presentations we have had. A couple of interesting ones that I 
would like to mention here, in the limited time I have left, we 
did have presentations on our transportation planning relative 
to TEA-21. We did have a presentation on Governor Ridge's 
Keystone Opportunity Zone program, which I believe the rural 
outreach helped this program to be very successful in its first 
year, creating 3,000 jobs Statewide, but notably 2,000 of those 
3,000 jobs were in rural parts of the State.
    We have talked about Federal safe drinking water law. We 
have talked about electric choice; Pennsylvania was one of the 
first States to use electric choice. We have also had 
discussions on Governor Ridge's ``Link to Learn'' program, 
which is an outreach to school districts to provide 
telecommunications and e-commerce capabilities in school 
districts.
    Through this extensive outreach, the Pennsylvania Rural 
Development Council has been a great tool. The Pennsylvania 
council does not do the development work, but it helps to 
enable it to happen. It increases the opportunity to share 
experiences across rural Pennsylvania on a peer-to-peer basis, 
it increases accessibility to Federal and State government 
officials on programs to aid development. That creates a sense 
of camaraderie among rural Pennsylvanians, so that they know 
that they are not alone and they are not forgotten.
    Thank you for the opportunity to be with you this 
afternoon.
    [The prepared statement of Mr. Black can be found in the 
appendix on page 72.]
    Senator Craig. Well, Mr. Black, thank you very much.
    I was, I guess, surprised some months ago when I heard the 
trivia question asked, ``Which is the most rural State in the 
Nation, and which is the most urban State in the Nation?'' We 
westerners, because of our large landscapes and oftentimes 
small communities, sparsely populated, view ourselves as often 
the more rural, but by definition we are not; you are. And I 
found that most interesting, but I guess it is a matter of the 
spread of populations as it results to the numbers of people.
    Mr. Black. Outside of Philadelphia and Pittsburgh, we are a 
largely rural State.
    Senator Craig. That is right, and of course the most urban 
State in the Nation, that none of us would probably have 
guessed, is Nevada, because all of the population is in one 
spot, nearly. The rest of the State is Federal.
    So when it comes to rural development, in the times I have 
had the privilege of driving across your State, I am always 
impressed by the spread of the population and the number of 
people who do live in, by definition, a rural environment, 
significantly different in a much more uniform way than we find 
it clustered in our western States.
    Thank you very much. Now, our last presenter this afternoon 
is Colleen Landkamer, Commissioner, First District, Blue Earth 
County. Wonderful name.
    Ms. Landkamer. It is a beautiful name, beautiful county. We 
would love to have you there.
    Senator Craig. Now, I would assume that is very fertile 
land, or is it clay?
    Ms. Landkamer. It is clay. That is where the blue comes 
from. When the Indians came through, it is a grayish tinge, and 
so they call it ``blue earth.''
    Senator Craig. Thank you. Please proceed.

 STATEMENT OF COLLEEN LANDKAMER, COMMISSIONER, FIRST DISTRICT, 
             BLUE EARTH COUNTY, MANKATO, MINNESOTA

    Ms. Landkamer. Thank you, Senator Craig. I appreciate you 
allowing me to testify before your committee today. My name is 
Colleen Landkamer. I am the Chair of the Blue Earth County 
Board of Commissioners in Minnesota, and I also Chair the 
National Association of Counties Rural Action Caucus.
    As an elected official from Blue Earth County, I have 
served for several years on the board of directors of the 
Minnesota Rural Partners. In fact, the executive director of 
Minnesota Rural Partners is here today, Marcie McLaughlin.
    Minnesota Rural Partners does not distribute money nor 
administer any programs. Rather, through an information-based 
``learning while doing'' approach, Minnesota Rural Partners 
addresses complex rural problems from a Minnesota, not a 
Washington, DC. perspective. They do this in a very efficient 
manner by convening the varied partners, building those 
critical inter-and intragovernmental relationships, promoting 
strategic partnerships, making better use of existing 
resources. Frequently they intervene in a problem-solving mode. 
They are making a difference in rural America, they are 
improving the quality of life, and they are representing a new 
model of governance.
    Now, Minnesota Rural Partners has done various things but I 
would like to talk about just a couple things that they have 
done for my county and our State. We had horrible storms last 
year that produced floods and tornadoes. MRP coordinated with 
the Federal agencies to help alleviate the conditions in 
counties following these severe storms. With the MRP in the 
forefront of the disaster mitigation, the citizens throughout 
Minnesota and my county all benefited from their services in 
coordinating those issues.
    They have also proved extremely beneficial in getting out 
information and best practices examples that have helped all 
counties in Minnesota on issues ranging from technology to 
agriforestry. There are 35, as you heard previously, other NRDP 
State Councils throughout this Nation, and they are all doing 
similar things. We are all a little different but there is a 
significant similarity.
    I also want to tell you a little bit about the National 
Association of Counties and our relationship with the 
Partnership. As you know, NACo is the only organization that 
represents counties across the United States, headquartered on 
Capitol Hill, and it is a full service organization for our 
counties. We have got a multitude of relationships with various 
entities, be it the National Governors Association, the League 
of Cities, but also the National Rural Development Partnership, 
the Rural Policy Institute. There is a multitude of 
partnerships that we have formed in the last few years just to 
deal with rural.
    At NACo I chair the Rural Action Caucus, and it was 
recently created, just 2-years ago. Previous to that for 2-
years we had a task force that looked at rural issues, but it 
is a relatively new thing for the National Association of 
Counties to have a rural task force or a Rural Action Caucus, 
which I chair. I represent 2,350 rural counties. That is a lot, 
and there is a lot of rural counties out there.
    You recently spoke at our national conference, emphasizing 
the need to seize the initiative, and that is what we are 
trying to do. We really appreciate your leadership on S. 1608. 
You are making such a difference for our forest counties across 
the United States, and that includes Minnesota, too, and we 
appreciate all the work you and your staff have done.
    Our Rural Caucus membership consists of about 1,000 rural 
county commissioners, and with their help, our two primary 
focuses this year will be bridging the digital divide and 
providing adequate health care services to rural counties, 
which is one of the most basic things that we think in our 
rural counties that you need in order to move forward.
    It is essential that our rural partners collaborate on 
these initiatives. Through future partnerships with our Rural 
Action Caucus, RUPRI, the NRDP, and rural State councils 
throughout America, we can make a difference as to how this 
country functions. We want to do it from the West across the 
Nation.
    So I would like to cite the importance of Under Secretary 
Jill Long-Thompson's role in promoting rural initiatives at the 
USDA, and I want to thank you, Mr. Chairman, for your 
leadership for rural America and how you are making a 
difference. Thank you.
    [The prepared statement of Ms. Landkamer can be found in 
the appendix on page 76.]
    Senator Craig. Well, thank you very much, Colleen, for your 
comments and those kind remarks.
    Let me lead into a question for all of you that really is a 
spin-out from the legislation that Colleen is familiar with, 
some of you may not be, as 1608 that I and Senator Ron Wyden of 
Oregon are trying to cause this Congress to deal with. It 
creates by direction a more clarified way of arriving at a 
collaborative process and rewards for doing so, by suggesting 
that in these areas of--this happens to be resource management 
on public lands--that in these areas where there is conflict 
between national policy and local economies, they don't mesh, 
as a result of that we find our local economies growing 
nonexistent because of a national policy in relation to a 
public resource, we are causing a collaborative process to come 
together and from that, if consensus is built as it relates to 
local programs, local projects, happens to be on Federal lands 
with Federal resources, then there is a reward of matching 
monies and those kinds of things.
    I strongly believe that we have to move more toward a 
community-based collaborative process that involves all of the 
stakeholders, and many of you have employed that, either 
directly, or by the character of what you are doing, you are 
doing that ultimately. So the question is, when working on a 
problem, how do you ensure that you are truly working in a 
collaborative process and not just a process representing only 
a few points of view? Have you created a template from which 
you bring together a particular group for that purpose? Any one 
of you might respond to that.
    Ms. Landkamer. If I could respond, Senator----
    Senator Craig. Yes.
    Ms. Landkamer.--I think in Minnesota, when you look at our 
board, it is extremely diverse, and I think that is very 
helpful, from Federal, State, local, tribal, the whole 
multitude of people that engage in that process. And what I 
have found is that it is such an open process, the way ours is 
run, that we are always bringing in new partners.
    One of the projects last year was a rural-urban dialogue 
between a section in the City of Minneapolis and Crookston, 
which is a rural community in northern Minnesota. And I think 
the strength of that was, it make everyone realize that our 
issues are the same; the solutions are a bit different.
    I really do believe that we have really opened up a broad 
dialogue. And it a challenge. It is a challenge to make sure 
that you are touching everyone that should be involved in an 
issue, but it is something we continue to work towards, and I 
think the broad membership of the Partnership makes a 
difference.
    Mr. Black. And I would like to--I'm sorry, Mr. Chairman.
    Senator Craig. Go ahead.
    Mr. Black. I would just echo similar comments. When there 
is an issue that develops, the director of the council has had 
the ability to bring together the various agents or agencies 
involved and bring it to one of the issue forums and discuss 
whatever the issue is.
    We had an issue, timbering in the Allegheny National 
Forest, and there has been some discussion on trying to get the 
partners to the table, and just using the format as it exists 
to share information and perhaps some ideas come out of it, and 
then from there solutions can be discussed.
    Senator Craig. Anyone else wish to comment on that?
    Mayor Graham. I would like to say in Indiana sometimes, 
many times we ask ourselves, you know, ``Is this a place where 
we belong, or are we just getting in the way of something that 
is already in progress?''
    Senator Craig. A reasonable question.
    Mayor Graham. Yes, and sometimes I think we figure out, 
maybe, that we were or we could just be getting in the way. But 
it seems like with as many players as we have sitting at the 
table, that those things are very early identified as to where 
we need to fit in and how our role can be.
    Senator Craig. OK. Go ahead.
    Mr. Fluharty. Mr. Chairman, I would just add, first of all 
commend you for that effort, and simply say I was sharing with 
your staff yesterday, we do a lot of work in RUPRI in Northern 
Ireland, in the Republic, and they indeed have a national, a 
stated international policy goal in E.U. called 
``subsidiarity,'' which is exactly the principles upon which 
you are operating there in areas of very high conflict, and 
that is lowering the resources to the most appropriate level 
for the decision, creating quantifiable outcome measures, 
assuring the community and the private sector involved. And I 
think we would benefit greatly in our policy culture to learn a 
bit about how other rural areas around the world are coping 
with these great challenges. The very same principles you are 
articulating there is what ``subsidiarity'' is about in Europe.
    Senator Craig. Well, thank you for mentioning that. I would 
like to know more about that. We will work with you to pursue 
that.
    Let me ask the next question in this manner: My guess is, 
you have all put your best foot forward. Put your worst foot 
forward. Where isn't it working, that you would like to see it 
work? Or, more importantly, why isn't it working in some areas 
like you would like to see it work? In all aspects of it, 
whether it is money, whether it is the way it is structured.
    Mayor Graham. I could tell you my opinion in the State of 
Indiana.
    Senator Craig. Yes.
    Mayor Graham. In the State of Indiana, and I think maybe 
even nationwide, I feel like we have failed when it comes to 
agriculture, and that is to the farmer or the rancher. I don't 
feel like that we have that involvement with those people 
nearly as strongly as we should have. They are not at the table 
with us.
    We have made efforts to involve them but I don't think we 
have worked hard enough, especially in the State of Indiana. 
Even though in the State of Indiana we have the Deputy 
Commissioner of Agriculture sitting at our board, it is still 
very limited as to what we do.
    In the crisis that we have in agriculture, they should be 
there and a lot heavier represented than what we have. I guess 
if we are making confessions, I would have to confess that I 
feel like we have let them down, and we need to work ever so 
much harder to make sure they are at the table with us.
    Mr. Hudson. I would like to speak to that as well, Mr. 
Chairman. Inclusiveness is an outstanding principle and it is 
certainly something that we embrace at the Idaho Rural 
Partnership. It is also a process. Not everyone comes to the 
table automatically. These are very complicated times and there 
are a lot of players in the realm.
    We I think work hard at bringing new members to the table, 
representatives of diverse interests, and I think we have got 
some distance to go yet. If I can be specific, one of our--we 
have two key targets at this time in Idaho.
    I am sure I will be spanked for saying this, being so 
specific. But the Idaho Transportation Department is a very 
important element of what we are trying to do. We have some 
members of the organization who are coming forward, but we 
don't feel that we have engaged them as systematically as we 
need to.
    I personally believe, and I am speaking for myself now, 
that higher education is an extraordinarily important part of 
the process of partnering for rural America, and we are only 
getting formally engaged now in bringing our great institutions 
in Idaho to the table to help us more. Now, it is very much a 
positive trend, but I would love to have started that earlier 
on. This is an evolutionary thing.
    I think the other arena where we all would like to see more 
progress is in the area of handoff. As you have heard from I 
think each of us in our own way, we do not have large numbers 
of dollars for project implementation. We are more like pilot 
lights in many ways, in trying to engage a variety of partners 
in doing things, and sometimes in the handoff it is difficult 
to make sure that all goes well.
    So we are spending a great deal of time in the arena of 
leadership training, facilitation, building common ground, 
mediation areas, helping communities to help themselves in the 
implementation area. I think we are making a lot of progress 
there, but it is something that is ongoing.
    Mr. Black. Just a followup. On the State level it is a 
similar issue of outreach and perhaps getting deeper and 
contacting more people. On a larger scale, on a macro scale 
across the Nation we have heard there are 36 councils. 
Obviously there are some States that are not involved. It has 
been, I think what I have heard today, a very helpful tool in a 
lot of areas, and that would lead us to believe that it could 
be a tool in those other States as well.
    From the Pennsylvania experience, granted it started 
towards the tail end of one administration in our State 
government, but the commitment had not been as deep with the 
first administration as it has been with the current 
administration. There has to be a working partnership at the 
State level in order for it to work. But I think to encourage 
that in other States might be a way that it could succeed. I 
don't want to call it a failure, but I think in services to 
rural people throughout the country, perhaps there are 
opportunities being missed.
    Senator Craig. Anyone else in that general area?
    Let me ask this. Tom had mentioned the engaging of our 
universities, our educational institutions. How many of you in 
your experiences are doing that or have done it on occasion or 
consistently? Colleen?
    Ms. Landkamer. We have on our board the Humphrey Institute. 
There are three different types of educational institutions on 
our board, and they show up all the time. So, I mean, you know, 
you can have them on your board, they don't always show up, but 
they have consistently shown up and been real players. So I 
think that is key, I don't think there is any doubt about that, 
so we are real pleased with that.
    Mayor Graham. We have certainly done that in Indiana, also. 
We have had Purdue University and Indiana University and Ball 
State University all there at the table and participating with 
us.
    Senator Craig. Under Secretary Long-Thompson voiced concern 
for lack of consistency in funding and a lack of a legislative 
foundation providing policy guidance and direction. Do you 
share her concerns on either or all of these points? Yes?
    Mr. Fluharty. Mr. Chairman, let me perhaps start, because I 
am with the councils and the Partnership but not of. We work in 
a collaborative manner, but I am really not in a council or 
with the Partnership. I would make a couple of general 
structural observations and then a couple of very personal 
programmatic observations.
    I think the councils are uneven across space and 
circumstance, as they would want to be, since they are locally 
driven, adapting to local circumstance and in different frames 
of their life cycle, starting in 1992 to current. I think one 
of the perpetual challenges we have in rural policy in the 
United States is who is our champion, who is our lead 
congressional committee, how does the USDA mandate to do rural 
development, make that work in the ground, and how do we better 
link extension, outreach, and the multiple resources that could 
come to councils?
    I think this partnership has come a long way in the last 
24-months in moving that. I would just say, Mr. Chairman, this 
is a very different group of people than we had 2-years ago, 
and I would simply say look at the leadership and the diversity 
of rural America that is represented in this partnership. I 
think they will continue to grow.
    I will be very candid. I believe this organization needs 
additional resources to fulfill their mission. I will be very 
candid about that. One of the challenges is, we must take rural 
to scale in this political arena, and I think this is an 
excellent organization to do that. They are underfunded to do 
that, Mr. Chairman, quite frankly.
    Senator Craig. Policy structure? Or do you--you know, there 
is a question of flexibility and shaping to the situation or 
the environment.
    Mr. Fluharty. Correct. Correct.
    Senator Craig. And that comes probably by an absence of 
guidelines, specific, under law, or rule and regulation. And 
the other side of it is, in absence of that, sometimes you may 
not get what you want.
    Mr. Fluharty. Correct. I will say one other thing. Then I 
would like to defer.
    Senator Craig. Yes.
    Mr. Fluharty. I think the accountability issue is very 
huge, and I also think the ability to create a seamless linkage 
that allows Federal decisionmakers and State decisionmakers, in 
a continuing decentralized governance structure, to understand 
what works in the dirt, is so very key. We aren't doing that 
well, Mr. Chairman, right now in our policy culture, and I 
think the councils are uniquely positioned to provide that. The 
reality is, what we are trying to do, between RUPRI, the 
Partnership and the councils, is build that throughput. I think 
we are starting.
    I will simply say, what is the structure? I believe we need 
serious congressional action and continual interest in the 
rural policy agenda. Short of that, I don't think we will get 
it, and I would just commend you to stay on task here. I think 
we will see good things happen if you do.
    Senator Craig. Mayor.
    Mayor Graham. I hope I am answering the question that you 
asked, but by just the virtue of the limited resources itself, 
we find ourselves really having to sit down and really looking 
as to how we can prioritize what we are able to work on.
    Senator Craig. That is not a bad thing.
    Mayor Graham. No, but we find that----
    Senator Craig. It is a limiting factor, yes.
    Mayor Graham. Yes, but we find that we are eliminating a 
lot of things that we should be working on, and they still 
should be priorities, but we haven't been able to do that. I 
think that there has been some value in that; that each State 
has chosen different priorities, and out of what these States 
have done has been a lot of successes that we can still copy 
off of, that in the State of Indiana this may not have been the 
top priority and this may not have been what we worked on, but 
we have taken successes from other States that chose that to be 
their priority and been able to replicate that in some part.
    Senator Craig. Thank you. Anyone else wish to comment on 
that?
    Tom?
    Mr. Hudson. Yes, Sir. I entirely agree with Mr. Fluharty's 
comments, and we embrace accountability. We seek it already 
today, and work very carefully to account for everything that 
we do, either philosophically or financially. Of course, we 
take great pains to handle our monies appropriately.
    The key for us, I believe, is something akin to a 
framework, a policy framework that outlines the kinds of things 
that might be necessary for working closely with our Federal 
partners, but a framework that allows us the flexibility or the 
latitude at the local and the State level to address our unique 
needs. I don't see these things as mutually exclusive. I know 
that we have a framework already for our accountability that is 
excellent, and if we can refine that in ways that address 
additional Federal needs, I think that is a relatively 
straightforward process that should not limit our capacity to 
continue to be responding to our local issues.
    Senator Craig. Great. Thank you. Anyone else?
    [No response.]
    Well, let me thank you all for your time and your 
willingness to come and participate. It is obvious to many of 
us who come from rural States, the conflict that rural 
communities find themselves in at the moment, and there is no 
quick fix, nor is there a rather positive light at the end of 
the tunnel at this moment. It is a matter of working our way 
out of a problem that is probably a transitional economy that 
in part will produce a new economy down the road.
    It is also a real problem here as to how we deal with it, 
to create optimum flexibility so you can be ultimately as 
creative as possible at the local level, and still maintain the 
accountability that Congress has almost historically insisted 
upon, and in some part needs to. It is fascinating at this 
moment, Colleen, as we work on the final language of S. 1608, 
in trying to build a broad base of stakeholders to come 
together and look at a large package of concerns, and from that 
sort out where they can find consensus and then focus or direct 
their resources to that point of consensus.
    That is where the Congress wants to go. In this instance 
the administration, or I should say the executive branch, or I 
should say the Agency, so that I can be relatively generic, is 
saying, ``Oh, no, no, no, no, no. We like the idea of 
consensus. We like the idea of a lot of stakeholders being at 
the table. But we are going to tell you on what issues you can 
make your decision on.''
    Now, that is just about as helpful as a flat tire, because 
it already presupposes and preshapes the ultimate 
decisionmaking, and offers none of the kind of creativity that 
you all are experiencing based on the need. But of course in 
this instance we are dealing with an issue of environment, and 
there is a higher elevation of sensitivity to it.
    I think you come to the arena when there is a consensus 
that a problem exists; there just isn't a consensus as to a 
solution. Here, some would argue there is no problem, at least 
on the thing we are currently working on; it is just a change 
in policy, and that is where the country wants to go, and the 
local communities will adjust accordingly in the process. They 
will simply fall out and reshape because the policy of America 
has changed, or of our country has changed.
    So it is a little different, but not a lot. And it is 
always fascinating to me, as we try to do this, to watch how 
difficult it is for people to give up power or to cause it to 
be transitioned to a different level where maybe the better 
kind of choices or decisions are made.
    Again, thank you all so very much for coming out today. 
There may be some additional questions that the Committee or 
its members will want to ask of you. And please don't sense the 
absence of members here today as a lack of interest. It is 
simply not the case. There are a good many of us struggling 
with this agricultural, rural economic issue at this moment. I 
say agriculture because my guess is, if agriculture were 
flourishing, some of our problems or some of your problems as 
you experience them would go away right rapidly. That is not 
the case today, and so we are trying to resolve that on a 
multifront basis.
     Again, thank you, and the Committee will stand adjourned.
    [Whereupon, at 4:31 p.m., the Committee was adjourned.]

                               <greek-d>
      
=======================================================================


                            A P P E N D I X

                             March 8, 2000



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T7661.111

[GRAPHIC] [TIFF OMITTED] T7661.112

[GRAPHIC] [TIFF OMITTED] T7661.001

[GRAPHIC] [TIFF OMITTED] T7661.002

[GRAPHIC] [TIFF OMITTED] T7661.003

[GRAPHIC] [TIFF OMITTED] T7661.004

[GRAPHIC] [TIFF OMITTED] T7661.005

[GRAPHIC] [TIFF OMITTED] T7661.006

[GRAPHIC] [TIFF OMITTED] T7661.007

[GRAPHIC] [TIFF OMITTED] T7661.008

[GRAPHIC] [TIFF OMITTED] T7661.009

[GRAPHIC] [TIFF OMITTED] T7661.010

[GRAPHIC] [TIFF OMITTED] T7661.011

[GRAPHIC] [TIFF OMITTED] T7661.012

[GRAPHIC] [TIFF OMITTED] T7661.013

[GRAPHIC] [TIFF OMITTED] T7661.014

[GRAPHIC] [TIFF OMITTED] T7661.015

[GRAPHIC] [TIFF OMITTED] T7661.016

[GRAPHIC] [TIFF OMITTED] T7661.017

[GRAPHIC] [TIFF OMITTED] T7661.018

[GRAPHIC] [TIFF OMITTED] T7661.019

[GRAPHIC] [TIFF OMITTED] T7661.020

[GRAPHIC] [TIFF OMITTED] T7661.021

[GRAPHIC] [TIFF OMITTED] T7661.022

[GRAPHIC] [TIFF OMITTED] T7661.023

[GRAPHIC] [TIFF OMITTED] T7661.024

[GRAPHIC] [TIFF OMITTED] T7661.025

[GRAPHIC] [TIFF OMITTED] T7661.026

[GRAPHIC] [TIFF OMITTED] T7661.027

[GRAPHIC] [TIFF OMITTED] T7661.028

[GRAPHIC] [TIFF OMITTED] T7661.029

[GRAPHIC] [TIFF OMITTED] T7661.030

[GRAPHIC] [TIFF OMITTED] T7661.031

[GRAPHIC] [TIFF OMITTED] T7661.032

[GRAPHIC] [TIFF OMITTED] T7661.033

[GRAPHIC] [TIFF OMITTED] T7661.034

[GRAPHIC] [TIFF OMITTED] T7661.035

[GRAPHIC] [TIFF OMITTED] T7661.036

[GRAPHIC] [TIFF OMITTED] T7661.037

[GRAPHIC] [TIFF OMITTED] T7661.038

[GRAPHIC] [TIFF OMITTED] T7661.051

[GRAPHIC] [TIFF OMITTED] T7661.052

[GRAPHIC] [TIFF OMITTED] T7661.053

[GRAPHIC] [TIFF OMITTED] T7661.054

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 8, 2000



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T7661.039

[GRAPHIC] [TIFF OMITTED] T7661.040

[GRAPHIC] [TIFF OMITTED] T7661.041

[GRAPHIC] [TIFF OMITTED] T7661.042

[GRAPHIC] [TIFF OMITTED] T7661.043

[GRAPHIC] [TIFF OMITTED] T7661.044

[GRAPHIC] [TIFF OMITTED] T7661.045

[GRAPHIC] [TIFF OMITTED] T7661.046

[GRAPHIC] [TIFF OMITTED] T7661.047

[GRAPHIC] [TIFF OMITTED] T7661.048

[GRAPHIC] [TIFF OMITTED] T7661.049

[GRAPHIC] [TIFF OMITTED] T7661.050

[GRAPHIC] [TIFF OMITTED] T7661.055

[GRAPHIC] [TIFF OMITTED] T7661.056

[GRAPHIC] [TIFF OMITTED] T7661.057

[GRAPHIC] [TIFF OMITTED] T7661.058

[GRAPHIC] [TIFF OMITTED] T7661.059

[GRAPHIC] [TIFF OMITTED] T7661.060

[GRAPHIC] [TIFF OMITTED] T7661.061

[GRAPHIC] [TIFF OMITTED] T7661.062

[GRAPHIC] [TIFF OMITTED] T7661.063

[GRAPHIC] [TIFF OMITTED] T7661.064

[GRAPHIC] [TIFF OMITTED] T7661.065

[GRAPHIC] [TIFF OMITTED] T7661.066

[GRAPHIC] [TIFF OMITTED] T7661.067

[GRAPHIC] [TIFF OMITTED] T7661.068

[GRAPHIC] [TIFF OMITTED] T7661.069

[GRAPHIC] [TIFF OMITTED] T7661.070

[GRAPHIC] [TIFF OMITTED] T7661.071

[GRAPHIC] [TIFF OMITTED] T7661.072

[GRAPHIC] [TIFF OMITTED] T7661.073

[GRAPHIC] [TIFF OMITTED] T7661.074

[GRAPHIC] [TIFF OMITTED] T7661.075

[GRAPHIC] [TIFF OMITTED] T7661.076

[GRAPHIC] [TIFF OMITTED] T7661.077

[GRAPHIC] [TIFF OMITTED] T7661.078

[GRAPHIC] [TIFF OMITTED] T7661.079

[GRAPHIC] [TIFF OMITTED] T7661.080

[GRAPHIC] [TIFF OMITTED] T7661.081

[GRAPHIC] [TIFF OMITTED] T7661.082

[GRAPHIC] [TIFF OMITTED] T7661.083

[GRAPHIC] [TIFF OMITTED] T7661.084

[GRAPHIC] [TIFF OMITTED] T7661.085

[GRAPHIC] [TIFF OMITTED] T7661.086

[GRAPHIC] [TIFF OMITTED] T7661.087

[GRAPHIC] [TIFF OMITTED] T7661.088

[GRAPHIC] [TIFF OMITTED] T7661.089

[GRAPHIC] [TIFF OMITTED] T7661.090

[GRAPHIC] [TIFF OMITTED] T7661.091

[GRAPHIC] [TIFF OMITTED] T7661.092

[GRAPHIC] [TIFF OMITTED] T7661.093

[GRAPHIC] [TIFF OMITTED] T7661.094

[GRAPHIC] [TIFF OMITTED] T7661.095

[GRAPHIC] [TIFF OMITTED] T7661.096

[GRAPHIC] [TIFF OMITTED] T7661.097

[GRAPHIC] [TIFF OMITTED] T7661.098

[GRAPHIC] [TIFF OMITTED] T7661.099

[GRAPHIC] [TIFF OMITTED] T7661.100

[GRAPHIC] [TIFF OMITTED] T7661.101

[GRAPHIC] [TIFF OMITTED] T7661.102

[GRAPHIC] [TIFF OMITTED] T7661.103

[GRAPHIC] [TIFF OMITTED] T7661.104

[GRAPHIC] [TIFF OMITTED] T7661.105

[GRAPHIC] [TIFF OMITTED] T7661.106

[GRAPHIC] [TIFF OMITTED] T7661.107

[GRAPHIC] [TIFF OMITTED] T7661.108

[GRAPHIC] [TIFF OMITTED] T7661.109

[GRAPHIC] [TIFF OMITTED] T7661.110

                                    

</pre></body></html>
